HHS/OIG, Audit -"Review of Medicaid Nursing Home Denial of Payment Remedies in the Commonwealth of Massachusetts,"(A-01-03-00008)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Nursing
Home Denial of Payment Remedies in the Commonwealth of Massachusetts," (A-01-03-00008)
April 8, 2004
Complete
Text of Report is available in PDF format (223 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if the Massachusetts Division
of Medical Assistance’s (State agency) controls were adequate to ensure that the mandatory denial of payment remedy for
substandard quality of care was applied in nursing homes that were not in substantial compliance with the prescribed
Medicaid participation requirements .  We
found that 9 nursing homes billed for and received Medicaid payments for new admissions during periods when they were
identified on State agency records as subject to the mandatory denial of payment sanction for new admissions.  As
a result, the State agency improperly claimed Medicaid payments totaling $64,202 ($32,101 Federal share).  We
recommend that the State agency refund the $32,101 to the Centers for Medicare and Medicaid Services, and improve
its policies and procedures to ensure that denial of payment sanctions are applied to all deficient nursing homes in
accordance with Medicaid  requirements .  The
State agency was in substantial agreement with the report findings and has taken
steps to implement our  recommendations.